Supreme Court. U.S.
FILED

&

JUL 2 8 2021
N
• Office of the clerk
^ ^ ~-

INTHE

SUPREME COURT OF THE UNITED STATES

JONATHAN GODWIN - Petitioner
vs.
MARK S. INCH, SECRETARY, DEPARTMENT OF
CORRECTIONS, STATE OF FLORIDA - Respondent(s)

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Mr. Jonathan Godwin
Wakulla Correctional Institution
110 Melaleuca Drive
Crawfordville, FL 32327
Petitioner, pro se
j5.

1

, I

QUESTIONS PRESENTED
1. WHETHER AN APPLICANT HAS TO DEMONSTRATE BOTH THE
DEBATABILITY

OF

CONSTITUTIONAL

CLAIM(S)

AND

THE

DEBATABILITY OF PROCEDURAL RULING(S), BEFORE ISSUANCE OF A
CERTIFICATE OF APPEALABILITY PURSUANT TO 28 U.S.C. § 2253(C),
WHERE THE APPLICATION FOR THE CERTIFICATE PRESENT ONLY
MERIT DETERMINE CLAIMS REACHED BY THE DISTRICT COURT?

2. WHETHER THE STANDARD FOR ISSUANCE OF A CERTIFICATE OF
APPEALABILITY AS SET FORTH IN SLACK V. McDANIEL, 529 U.S. 473
(2000) REQUIRE AN APPLICANT TO DEMONSTRATE BOTH THE
DEBATABILITY

OF

CONSTITUTIONAL

CLAIM(S),

AND

THE

DEBATABILITY OF PROCEDURAL RULING(S), IRRESPECTIVE OF THE
APPLICANTS ABANDONMENT OF THOSE CLAIM(S) THE DISTRICT
COURT DISMISSED ON PROCEDURAL GROUNDS?

u

I

t

LIST OF PARTIES
[VI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED OASES
•

Godwin v. Secretary, No. 8:l6-cv-02253-SDMSPF, U.S. District Court for the
Middle District of Florida. Judgment entered Oct. 23, 2020.

•

Godwin v. Secretary, No. 20-14490-E, U.S. Court of Appeals for the Eleventh
Circuit. Judgment entered May 3, 2021.

m

t

I

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

10

INDEX TO APPENDICES
APPENDIX A — U.S. Court of Appeals for the Eleventh Circuit, Order denying COA.
APPENDIX B — U.S. District Court opinion denying habeas petition.
APPENDIX C - U.S. Court of Appeals for the Eleventh Circuit, Order denying
Rehearing.
APPENDIX D — Application for COA.
APPENDIX E — Motion for Rehearing.
APPENDIX F — State Court non-final order granting in part/denying in part.
State Court judgment denying motion for postconviction relief..

IV

!.

I

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Barefoot v. Estelle, 463 U.S. 880 (1983) ..................

6

Jennings v. Woodard, 290 F.3d 1006 (9th Cir. 2002)

7

McGowen v. Thaler; 675 F.3d 482 (5th Cir. 2012)..

7

Pabon v. Mahoney, 654 F.3d 385 (3rd Cir. 2011)...

7

Rhagi v. Artuz, 309 F.3d 103 (2nd Cir. 2002)..........

7

Rodriguez v U.S., 286 F.3d 972 (7th Cir. 2002)____

7

Slack v. McDaniel, 529 U.S. 473 (2000)...................
Swain v. Florida Comm ’n on Offender Rev.,
2017 U.S. Dist. Lexis 173310 (S.D. Fla., Oct. 18, 2017)

passim
8

Swain v. Florida Comm’n on Offender Rev.,
2018 U.S. Dist. Lexis 66089 (S.D. Fla., April 18, 2018)

9

Swain v. Florida Comm’n on Offender Rev.,
2018 U.S. App. Lexis 20447 (11th Cir., July 23, 2018)

9

U.S. v. McDonald, 641 F.3d 596 (4* Cir. 2011)....................

7

U.S. v. Saro, 252 F.3d 449 (D.C. Cir. 2001)

7

U.S. v. Webb, 586 F.3d 383 (6* Cir. 2009)

7

STATUTES AND RULES

2

28 U.S.C. § 1254 (1)
28 U.S.C. § 2253

passim

28 U.S.C. § 2254

4

v

*>

I

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
bJ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to
the petition and is
[ ] reported at
or,
bl\ has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix B to
the petition and is
[ ] reported at
.»or,
bl\ has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
.to
the petition and is
[ ] reported at
.1 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
court
appears at Appendix
to the petition and is
[ ] reported at____
> or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

*-

J

JURISDICTION
[VI For cases from Federal courtsThe date which the United States Court of Appeals decided my case
was March 30, 2021.
[ ] No petition for rehearing was timely filed in my case.
Ml A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: May 3, 2021, and a copy of the order
denying rehearing appears at Appendix C.
[ ] An extension of time to file the petition for writ of certiorari was granted
to and including_______
.(date) on
.(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(l).
[ ] For cases from state courts:
The date on which the highest state Court decided my case was
A copy of that decision appears at Appendix______.
[ ] A timely petition for rehearing was thereafter denied on the following
date:_____
j and a copy of the order denying rehearing appears
at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____
.(date) on
(date) in
Application No. ___ A
The jurisdiction of this Court is invoked under U.S.C. § 1257(a).

2

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 2253 (a) In a habeas corpus proceeding or a proceeding under section 2255 before a
district judge, the final order shall be subject to review, on appeal, by the
court of appeals for the circuit in which the proceeding is held.
(b) There shall be no right of appeal from a final order in a proceeding to test the
validity of a warrant to remove to another district or for commitment or trial
a person charged with a criminal offense against the United States, or to test
the validity of such person’s detention pending removal proceedings.
(c) (l) Unless a circuit justice or judge issues a certificate of appealability, an
appeal may not be taken to the court of appeals from —
(A) The final order in a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State Court; or
(B) The final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (l) only if the
applicant has made a substantial showing of the denial of a constitutional
right.
(3) The certificate of appealability under paragraph (l) shall indicate which
specific issue or issues satisfy the showing required by paragraph (2).

3

STATEMENT OF THE CASE
After unsuccessful attempts and exhaustion of obtaining relief in state courts,
Godwin timely filed a habeas petition pursuant to 28 U.S.C. § 2254. The petition
alleged a total of ten constitutional claims for relief. On October 23, 2020, the
Middle District Court (Tampa Division), State of Florida, without conducting an
evidentiary hearing, summarily denied all claims upon the merits except one.
(Appendix B attached)1 Naturally, the district court denied Godwin a certificate of
appealability and leave to appeal in forma pauperis. Id.
Ultimately, Godwin appealed to the Unites States Court of Appeals for the
Eleventh Circuit. Thereafter, he timely applied for a certificate of appealability
(COA) asserting six of the ten claims presented in his habeas petition. (Appendix D
attached). None of the claims presented in the application for a COA were dismissed
by the district court on procedural grounds. Id. Nevertheless, on March 30, 2021,
United States Circuit Judge Robert J. Luck, concluded that Godwin failed to make
the requisite showing, “that reasonable jurists would find debatable both: (l) the
merits of an underlying claim, and (2) the procedural issues that he seeks to raise.
See U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000)” (Appendix A
attached)
Within ten business days, Godwin filed a motion for rehearing. (Appendix E
attached) The motion asserted that in Slack, this Honorable Court established two

1 The district court also ruled that Claim One alleging an unreasonable seizure was
deemed waived. However, that issue pose no relevance to the questions presented
herein.
4

distinct standards for review before the issuance of a COA. When the district court
has

rejected the constitutional claims on the merits, “the petitioner must

demonstrate that reasonable jurist would find the district court’s assessment of the
constitutional claims debatable or wrong.” However, “[w]here the district court
denies a habeas petition on procedural grounds without reaching the prisoner’s
underlying constitutional claims, a COA should issue when the prisoner shows, at
least, that jurist of reason would find debatable whether the petition states a valid
claim of denial of a constitutional right and that jurist of reason would find it
debatable whether the district court was correct in it’s procedural ruling.” Id.
Essentially reiterating that the “district court rejected Godwin’s constitutional
claims on the merit, and therefore, to satisfy 28 U.S.C. § 2253(c), Godwin was only
required to demonstrate that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong.” Ibid.
On May 3, 2021, Rosenbaum and Luck, Circuit Judges, denied Godwin’s
motion for Rehearing, Reconsideration, or Modification “because he has offered no
new evidence or arguments of merit to warrant relief.” (Appendix C attached) This
timely petition follows.

5

REASONS FOR GRANTING THE PETITION
The standard for appealability under 28 U.S.C. § 2253(c)(2) is somewhat
different depending upon whether the district court has rejected the issue sought to
be appealed on it’s merits or on procedural grounds.
With respect to constitutional claims rejected on their merits, this Honorable
Court has applied to certificates of appealability the standard for granting certificates
of probable cause set forth in Barefoot v. Estelle, 463 U.S. 880 (1983), and followed in
the Antiterrorism and Effective Death Penalty Act (AEDPA). See Slack v. McDaniel,
529 U.S. 473, 484 (2000). Under this standard, the appellant must make a showing
that each issue he or she seeks to appeal is at least “debatable among jurists of
reason; that a court could resolve the issues [in a different manner]; or that the
questions are adequate to deserve encouragement to proceed further.” Barefoot, 463
U.S. at 893 n. 4 (internal quotations omitted; bracketed insertions original) The
“substantial showing” standard “does not compel a petitioner to demonstrate that he
or she would prevail on the merits.” Id.
As to claims denied on procedural grounds (that is, where the district court
has not reached the merits), this Honorable Court in Slack clarified that the
certificate of appealability standard is somewhat different and easier to meet:
(1) “whether jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right” (in other words,
does the petition at least alleged a valid claim, even though it hasn’t been
proven yet), and (2) whether “jurists of reason would find it debatable

6

whether the district court was correct in its procedural ruling.” Slack, 529
U.S. at 478
Here, the district court rejected nine out of the ten constitutional claims
presented by Godwin’s habeas petition on the merits. (Appendix B) While
simultaneously denying a COA and leave to appeal in forma pauperis. Id. Godwin
appealed and subsequently applied for a COA from the United States Court of Appeals
for the Eleventh Circuit. Except for an alleged Clisby violation, the five constitutional
claims presented by Godwin’s application seeking a COA were rejected by the district
court on the merits. (Appendix D)1
The sister circuits adhere to this Honorable Court’s framework in Slack, supra,
at 484, and agree that both of the questions presented herein should be answered in

the negative. See e.g. Rhagi v. Artuz, 309 F.3d 103, 106 (2nd Or. 2002) (per curiam)
(to receive COA for issue denied in the district court on procedural grounds,
petitioner must show that reasonable jurists would find both substantive and
procedural issues debatable); Pabon v. Mahoney, 654 F.3d 385, 392-93 (3rd Cir. 2011)
(same); U.S. v. McDonald, 641 F.3d 596, 607-08 (4th Cir. 2011) (same); McGowen v.
Thaler, 675 F.3d 482, 498 (5th Cir. 2012) (same); Webb v. U.S., 586 F.3d 383, 401 (6th
Cir. 2009) (same); Rodriguez v U.S., 286 F.3d 972, 978 (7th Cir.)(same), amended by
2002 U.S. App. LEXIS 9497(7th Cir. 2002) (same); Jennings v. Woodard, 290 F.3d
1006, 1010 (9th Cir. 2002) (same); U.S. v. Saro, 252 F.3d 449, 453 (D.C. Cir. 2001)
(same).

1 Clisby v. Jones, 960 F.2d 925 (11th Cir. 1992) (en banc)

Hence, it is axiomatic that where a district court denies a habeas petition
(issue) on procedural grounds without reaching the underlying merits, an applicant
seeking a COA of said issue(s) must show that reasonable jurists would find both
substantive and procedural issues debatable. Why then was this standard applied
to Godwin’s application seeking a COA, where the district court rejected the
underlying constitutional claims presented on the merits?
Ultimately, there is a manifest inconsistency amongst Eleventh Circuit
jurisprudence executing the mandate established by this Honorable Court in Slack,
supra. Most recently that inconsistency was illustrated in Swain v. Florida
Commission on Offender Review. Upon rejecting Swain's constitutional claims on
the merits, Magistrate Judge Patrick A. White, report recommended that Swaids
habeas petition be denied. In evaluating whether a COA should issue, the
magistrate stated; “To merit a COA, Petitioner must show that reasonable jurists
would find debatable both: (l) the merits of the underlying claim, and (2) the
procedural issues that he seeks to raise. Consequently, denying Swain a COA.
Swain, 2017 U.S. Dist. Lexis 173310 (S.D. Fla., Oct. 18, 2017). Then U.S. District
Judge Cecilia M. Altonaga stated; “Where a district court has rejected the
constitutional claims on the merits, the showing required to satisfy 2253(c) is
straightforward: The [Movant] must demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional claims debatable or wrong.
Slack v. McDaniel, 529 U.S. 473, 484, 120 S.Ct. 1595, 146 L.Ed. 2d 542 (2000)
(Alteration added) ... reasonable jurists can disagree regarding whether reliance on

8

charges for which Petitioner was acquitted — in violation of regulations governing
the Commission — constitutes a violation of Petitioner’s due process rights.” Thus,
issuing a COA. See Swain, 2018 U.S. Dist. Lexis 66089 (S.D. Fla., April 18, 2018)
Thereafter, Swain applied for an expansion of the COA in the U.S. Court of Appeals
for the Eleventh Circuit. See Swain, 2018 U.S. App. LEXIS 20447 (11th Cir., July
23, 2018) U.S. Circuit Judge Charles R. Wilson, stated; "...Swain must show that
reasonable jurists would find debatable both; (l) the merits of an underlying claims;
and (2) the procedural issues that he seeks to raise. See 28 U.S.C. 2253(c)(2); Slack
v. McDaniel, 529 U.S. 473, 478, 120 S.Ct. 1595, 146 L.Ed. 2d 542 (2000). Because he
has failed to make the requisite showing, Swain's motion to expand his certificate of
appealability is DENIED. However, Swain may proceed on the COA issued by the
district court.” Id. Between the magistrate and the Eleventh Circuit Court of
Appeals, it would appear that the district court judge applied the correct standard
to Swain’s application for a COA.
Godwin respectfully submits that this Honorable Court should exercise it’s
discretion, grant certiorari, and answer the questions presented in the negative
quashing the decision below.

9

1.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

4tM_
Jonathan Godwin
Petitioner, pro se
Date>

10

